                           EXECUTIVE SUMMARY
This is the 33rd semiannual report issued by the Office of Inspector General (OIG) at
the Federal Labor Relations Authority (FLRA). This report, submitted pursuant to
section 5 of the Inspector General Act, summarizes the major activities and
accomplishments for the period of October 1, 2004 to March 31, 2005.

During this reporting period, the FLRA Inspector General conducted an audit of FLRA's
implemented financial statement, processed 7 hotline calls, rreceived 5 issues which
involved administrative investigations, completed an internal review of FLRA’s
procurement of court reporting services and internal review related to FLRA 's
alternative work schedules. During this reporting period 2 security incidents occurred.

During this reporting period, the FLRA Inspector General provided FLRA management
a complete listing of Inspector General oversight findings and recommendations from
1998 to the current time, highlighting open recommendations and requesting
management's response to all previous and current recommendations. No response
has been provided.

During this reporting period, the FLRA Inspector General assessed FLRA's
management and performance challenges and conducted an independent
assessment of FLRA's security information technology to comply with FISMA
requirements.

The oversight activities completed during this reporting period and related
recommendations do not provide immediate savings and, in fact, will actually require
more resources to improve identified material weaknesses, high risks and vulnerable
processes in FLRA’s security programs. The oversight activities conducted during this
reporting period also indicated that the FLRA also needs to focus on implementing
cost effective management controls, updating FLRA policy and improving employee
and customer human capital services.

During this reporting period, FLRA Management began to address the improvement
of the efficiency and effectiveness of several programs which had previously been
addressed by the Inspector General's oversight activities. These included information
security, procure- ment and human capital. Management also contracted out Agency-
wide position classification and cost analysis to ensure that the FLRA operates in a
productive manner and is in compliance with the President's Management Agenda.




                                           1
         THE FEDERAL LABOR RELATIONS AUTHORITY
The FLRA is an independent agency responsible for directing the labor-management
relations for 1.9 million non-postal Federal employees world-wide, nearly 1.1 million of
whom are exclusively represented in approximately 2,200 bargaining units. The FLRA
is charged by the Federal Service Labor-Management Relations (The Statute), section
7105, with providing leadership in establishing policies and guidance relating to
Federal sector labor-management relations, resolving disputes arising among
Federal agencies and unions representing Federal employees, and ensuring
compliance with the Statute.

The FLRA represents the Federal government’s consolidated approach to labor-
management relations. It is “three components in one,” fulfilling legal statutory
responsibilities through its three primary operational components – the Authority, the
Office of General Counsel and the Federal Service Impasses Panel. The FLRA has 7
regional offices and two satellite offices. The FLRA also provides full staff support to
two other organizations – the Foreign Service Impasses Disputes Panel and the
Foreign Service Labor Relations Board.

The Authority is a quasi-judicial body with three full-time Members who are appointed
for 5-year terms by the President, with the advice and consent of the Senate. One
member is appointed by the President to serve as Chairman of the Authority and as
Chief Executive and Administrative Officer of the FLRA.

The Authority adjudicates disputes arising under the Statute, deciding cases
concerning the negotiability of collective bargaining agreement proposals, unfair labor
practice (ULP) allegations, representation petitions, and exceptions to grievance
arbitration awards. In addition, consistent with its statutory responsibility to provide
leadership in establishing policies and guidance to participants in the Federal labor-
management relations program, and as part of the Collaboration and Alternative
Dispute Resolution (CADRE) Program described below, the Authority assists Federal
agencies and unions in understanding their rights and responsibilities under the
Statute and resolving their disputes through interest-based problem-solving rather
than adjudication.

In addition to the three Member Offices, the Authority component of the FLRA also
houses the Office of Administrative Law Judges, the Collaboration and Alternative
Dispute Resolution Office, the Office of the Solicitor, the Office of the Executive Director,
and the Office of the Inspector General.

Office of the Administrative Law Judges: The FLRA’s Administrative Law Judges
(ALJs) are appointed by the Authority to hear and prepare recommended decisions in
                                              2
cases involving alleged ULPs. In addition, ALJs issue decisions involving
applications for attorney fees and files pursuant to the Back Pay Act or the Equal
Access to Justice Act. The decisions of the ALJs may be affirmed, modified, or
reversed, in whole or in part, by the Authority. If no exceptions are filed to an ALJ’s
decisions, the decision is adopted by the Authority and becomes final and binding on
the parties. The ALJs also issue subpoenas as requested by the parties. While
performing their duties, the ALJs engage in settlement efforts throughout all stages of
the process and conduct pre-hearing conferences in all ULP cases.

Office of Policy, Project & Performance Management: The Office of Policy, Project &
Performance Management is responsible for agency-wide strategic policy and
planning, including the role of chief human capital officer. The office also provides
oversight with respect to FLRA performance management initiatives. The office drafts,
reviews, and approves all agency-wide instructions and policies; oversees the
Chairman’s and the Administration’s initiatives; and develops agency-wide initiatives,
which upon the Chairman’s final approval are implemented through the Office of the
Executive Director. The office also houses the agency’s congressional affairs function
and serves as the Chairman’s primary point of contact with the Solicitor, Executive
Director, EEO Director, and Inspector General.

Collaboration and Alternative Dispute Resolution (CADR) Office: The CADR Office
is responsible for coordinating, supporting, and expanding the unified CADR Program.
This program involves a variety of collaboration and alternative dispute resolution
techniques at all steps of the process, from investigation and prosecution to the
adjudication of cases and resolution of bargaining impasses. The CADR Program
also provides facilitation and training programs to assist labor and management in
developing constructive approaches to conducting their relationship.

Office of the Solicitor: The Office of the Solicitor represents the Authority in court
proceedings before all United States Courts, including the U.S. Supreme Court, U.S.
Courts of Appeals, and Federal District Courts. The office serves as the agency’s in-
house counsel, providing legal advice to all FLRA components. The Solicitor is also
the Designated Agency Ethics Officers under the Ethics in Government Act of 1978, as
amended.

Office of the Executive Director: The Office of the Executive Director provides
operational support to all components of the FLRA, including budget and finance,
human resources, procurement, administrative services, and information resources
management and is responsible for developing and implementing agency-wide
initiatives, such as strategic planning.

Office of the Inspector General: The Office of the Inspector General is responsible
                                           3
for directing and carrying out audits and investigations related to the FLRA programs
and operations. In addition, the office recommends policies that promote economic,
efficient, and effective agency programs that prevent fraud, waste and abuse. The
office is responsible for keeping the Chair and the Congress fully informed of
problems and


deficiencies, as well as the necessity for corrective action. The Office of the Inspector
General is mandated by Public Law 100-504 and the Inspector General Act
Amendments of 1988.

The Office of the General Counsel: The Office of the General Counsel (OGC) is the
independent investigative and prosecutorial component of the FLRA. The OGC
investigates all ULP charges filed by labor or management and prosecutes all ULP
complaints before the Authority. The General Counsel, who is appointed by the
President with the advice and consent of the Senate for a 5-year term, manages all
OGC employees who comprise over 50 percent of the FLRA’s staff. Most of the OGC’s
staff serve in the FLRA’s seven regional offices located in Atlanta, Boston, Chicago,
Dallas, Denver, San Francisco, and Washington, DC. The Office of the General
Counsel also operates 2 satellite offices, located at Brea, California and Cleveland
Ohio. The regional and satellite offices investigate and settle or prosecute ULP
claims, actively encouraging the use of collaboration and alternative dispute resolution
at every step, to ensure compliance with all ULP orders issued by the Authority. The
regional offices also receive and process representation petitions, and provide
facilitation, intervention, training, and education services to the parties. The General
Counsel reviews all appeals of a Regional Director’s decision not to issue a ULP
complaint and establishes policies and procedures for processing ULP charges.

The Federal Service Impasses Panel: The Federal Service Impasses Panel (FSIP or
the Panel) is composed of seven part-time Members who are appointed by the
President to serve for a 5-year term. One Member is appointed by the President to
serve as the Panel Chair. The Panel resolves bargaining impasses between Federal
agencies and unions representing Federal employees arising from negotiations over
conditions of employment under the Statute and the Federal Employees Flexible and
Compressed Work Schedules Act. If bargaining between the parties, followed by
mediation assistance, proves unsuccessful, the Panel has the authority to
recommend procedures and to take whatever action it deems necessary to resolve the
impasse.

The Foreign Service Labor Relations Board: The Foreign Service Labor Relations
Board (the Board) was created by the Foreign Service Act of 1980 to administer the
labor-management relations program for Foreign Service employees in the U.S.
                                            4
Information Agency, the Agency for International Development, and the Departments of
State, Agriculture and Commerce. The Board is composed of three Members,
including the Chairman of the Authority who appoints the other two Members, who
serve on a part-time basis. The Chairman of the Authority also serves as Chairman of
the Board. The FLRA General Counsel acts as General Counsel for the Board, and
the Authority staff provides necessary support to the Board.

The Foreign Service Impasse Disputes Panel: The Foreign Service Impasse
Disputes Panel (the Disputes Panel) was also created by the Foreign Service Act of
1980. The Disputes Panel is composed of five part-time Members who are appointed
by the Chairman of the Foreign Service Labor Relations Board (the FLRA Chair). The
Disputes Panel resolves bargaining impasses between Federal agencies and
Foreign Service personnel in the U.S. Information Agency, the Agency for International
Development, and the Departments of State, Agriculture, and Commerce, over
conditions of employment under the Foreign Service Act of 1980. The FSIP staff
supports the Disputes Panel.

The FLRA's headquarters is located in Washington, D.C. The FLRA maintains
regional offices in Atlanta, Boston, Chicago, Dallas, Denver, San Francisco, and
Washington, D.C. The FLRA now has 187 full-time equivalents (FTE’s ) and had a
2004 budget appropriation of $29,436,000.


FLRA MISSION STATEMENT
The Federal Labor Relations Authority exercises leadership under the Federal Service
Labor-Management Relations Statute to promote stable, constructive labor relations
that contribute to a more effective Government.

The mission of the FLRA is to carry out five primary statutory responsibilities as
efficiently as possible and in a manner that gives full effect to the rights afforded
employees and agencies under the Statute.

Under the Statute, the primary responsibilities of the FLRA include:

!      Determining the appropriateness of units for labor organization representation;
!      Adjudicating exceptions to arbitrator's awards;
!      Resolving complaints of unfair labor practices; and
!      Resolving impasses and issues relating to the duty to bargain.




                                             5
OFFICE OF INSPECTOR GENERAL

The FLRA's Office of Inspector General was established pursuant to Public Law 100-
504, the Inspector General Act Amendments of 1988, which amended Pub. L. 95-452,
and the Inspector General Act of 1978. The Inspector General reports directly to the
FLRA Chairman. As set forth in the authorizing legislation, the FLRA Inspector
General:

!     Conducts and supervises internal reviews, audits and evaluations of the
      programs and operations of the FLRA;

!     Provides leadership and coordination, and recommends actions to
      management, which: (1) promote economy, efficiency, and effectiveness in
      agency programs and operations; and (2) prevent and detect fraud, waste,
      abuse, and mismanagement of government resources; and

!     Keeps the Chairman, FLRA management, and the Congress fully informed
      regarding problems and deficiencies, and the progress of corrective action.

The Inspector General’s Office is currently staffed with one full time Inspector General
and one full time Management Analyst (upward mobility position). When required, the
FLRA Inspector General uses contractor auditors to perform audits. The Office of the
Inspector General's FY 2005 budget was reduced from $161,000 in 2004 to $77,500.
The FLRA. Inspector General submitted a request for an increase in operational
funding in the FLRA Office of Inspector General FY 2005 budget submission. The
lack of staff and increased oversight activities required by law (annual security and
financial statements audits) provided the basis for this requests. The FY 2005 FLRA
Office of the Inspector General Budget specifically provided the audit funds for the FY
2005 FLRA Financial Statement Audit.

OFFICE OF INSPECTOR GENERAL MISSION STATEMENT

The mission of the FLRA Office of Inspector General is to provide FLRA leadership,
along with an independent and objective assessment of the organization’s efficiency
and effectiveness. This is accomplished through proactive evaluations of FLRA
operational processes. The Inspector General provides necessary oversight and
serves as a catalyst for improving and maximizing the efficiency and integrity of FLRA
programs and operations. The goal of the Inspector General's work is to maximize
the effectiveness of FLRA programs by evaluating performance and identifying ways
to make these programs more efficient and effective. In addition, the FLRA Inspector
General strives to prevent and detect fraud, waste, abuse, and mismanagement of
the FLRA’s resources and operationswhich could adversely impact the organization’s
                                           6
integrity and ability to perform its mission in a timely, customer responsive manner.

The primary objectives of the Office of Inspector General are as follows:

!     To evaluate the efficiency and effectiveness of FLRA program and resource
      management and identify best practices, as well as causative factors,
      impeding the accomplishment of the FLRA mission.

!     To assist the Chairman and FLRA management in carrying out their
      responsibilities by providing them with objectives and timely information on the
      conduct of FLRA operations, together with the Inspector General’s independent
      analysis, conclusions, and recommendations.

!     To use evaluations, internal reviews, and more traditional assessment tools of
      audits, inspections, and investigations, to maximize oversight and strengthen
      system and process controls.


!     To support the Administration and Congress in maximizing Government
      integrity and efficiency and minimizing the occurrence of fraud, waste, abuse,
      and mismanagement.

                       AUDIT/INTERNAL REVIEW ACTIVITY

During this reporting period the following audits and reviews were performed by the
FLRA Office of the Inspector General in compliance with Government auditing
standards:

Audit of FLRA Financial Statements                                Closed

During this reporting period, the Office of the Inspector General conducted it's first
audit of FLRA's compliance with Financial Statements which were implemented in
2004. The audit included the review of FLRA's balance sheet and the related
statements of net cost, changes in net positions budgetary resources and financing
for fiscal year 2004. This audit included a comprehensive review of FLRA internal
controls and risk assessments related to management of the financial statements.
This audit noted one matter involving internal controls and operations related to
compliance with the Federal Information Security and Management Act of 2002 which
was previously identified as a material weakness by the Inspector General 2004 Audit
of FLRA's Security Programs.

This Audit of FLRA's Financial Statements stated that the high risks identified in
                                           7
several information security areas could negatively impact the FLRA's financial
management system. This audit also revealed that a significant amount of FLRA's
policies and procedures were out of date and need to be updated to address FLRA's
compliance with Federal operations. A review of FLRA's compliance with the Federal
Management Improvement Act of l996 disclosed no instances of non-compliance.
This audit also provided several suggestions which would strengthen internal
controls and make FLRA operations more efficient. These vulnerabilities will be
reviewed in the FY 2005 Audit of FLRA's Financial Statements. This report was
issued on November 12, 2004. Recommendations related to this audit are listed on
page 18.

Internal Review of FLRA Court Reporting Procurement                Closed

During this reporting period, the FLRA Inspector General conducted an internal
review of FLRA's court reporting services which is an essential part of FLRA's
statutory mission. This review revealed that FLRA 's court reporting services have
been outsourced since FLRA's inception until 2004. In March 2004, the existing
contract expired and there was insufficient time to compete for a new contract. FLRA
management addressed this essential requirement by using blanket purchase
agreements. This process required much more paperwork but addressed FLRA's
immediate need of court reporting services and did not have any negative impact on
FLRA's requirement. This review also revealed that toward the end of FY 2004, FLRA
management submitted a court reporting contract statement of work through the
Department of Treasury FedSource. FLRA management did not accept this contract
because of its extensive price and has continued using blanket purchase orders for
FLRA's court reporting services. Recommendations related to this internal review are
listed on page 20.

Internal Review of FLRA's Alternative Work Schedule                 Closed

As a followup to a FLRA Inspector General investigation, a comprehensive review of
FLRA's alternative work schedule compliance was conducted during this reporting
period. This review revealed that FLRA implemented alternative work schedules in
support of the 1994 Presidential Memorandum and created a pilot program which
allowed FLRA employees to register for one of two flexible work schedules. This
review revealed that over the past five years, there were only a few times that fixed and
flexiplace employees engaged in improper actions. These few times related to
misunderstanding of the employee's work schedule requirements and were
corrected. This review revealed that most FLRA supervisors and just about all FLRA
employees thought that alternative work schedules were beneficial. Three FLRA
supervisors stated they did not like the alternative work schedules because they felt it
had a negative effect on work productivity. Only one FLRA time keeper had a problem
                                           8
with some flexiplace employees who failed to sign in and our on every day. This
review verified that no Agency training has been conducted since 2001 but most
employees were aware of their requirements and have read FLRA's related policy.
Recommendations related to this internal review are listed on page 20.

Required Reports

FLRA Inspector General FISMA Report                        Closed

During this reporting period, the FLRA completed a comprehensive review of FLRA’s
information security and addressed all elements of NIST guidance which revealed
material weaknesses. These weaknesses involved the lack of information security
policy, system controls, system software controls, continuity controls and contingency
planning. During FY 2004, several major information technology systems were
made. Although the FLRA Chief Information Officer provided information security
information several times by e-mail, no agency wide training has been provided.
Management needs to focus more on FLRA information security needs (has begun to
do so during this reporting period.)

FLRA Inspector General PAR Report                          Closed

During this reporting period, the FLRA Inspector General assessed FLRA’s FY 2004
management performance and accountability. This review revealed some
challenging human capital issues, the need to eliminate management conflicts of
interest and fill statutory required positions to ensure that administrative programs
are being managed appropriately in compliance with Federal requirements. This
review noted that management needs to focus on its current work environment by
supporting professional and productive interaction with all levels of management and
employees, focus on employee and customer service and address vulnerabilities
which are identified by management and the Inspector General before they become
significant problems.

FLRA Security Incidents

During this reporting period, the FLRA had two security incidents. One involved the
stealing of a projector from a FLRA Regional Office Attorney's vehicle. The second
involved an FLRA employee being stuck in a FLRA Headquarters elevator for
approximately 20 minutes, until the elevator was fixed.




                                          9
Inspector General Training

During this reporting period, the FLRA Inspector General had the following training:

                             Government Leadership
                             Internal Auditors Government Seminar

Legislative Review/Comments

During this reporting period, the FLRA Inspector General has reviewed and provided
comments for the following policies:

                              OMB Circular A-123
                              PCIE/ECIE Strategic Framework
                              Proposed Inspector General Act




                                         10
Investigation Activity

During this reporting period, the FLRA Inspector General conducted 5 administrative
investigations.

                             Office of the Inspector General
                              FY 2005 Investigation Log


   Case No.                 Subject               Date               Status
                                                 Received
 2005-1-01         Anonymous letter alleging     12-07-04      Investigation Closed
                   FLRA employees abuse of                     03-21-05
                   AWS.

 2005-I-02         FLRA employee alleges         1-11-05       Investigation Closed
                   supervisor using a FLRA                     02-05-05
                   employee/attorney during
                   business hours to
                   represent the supervisor
                   in a personal legal case.

 2005-I-03         FLRA Regional Office had      2-23-05       Investigation Closed
                   extensive problems &                        05-11-05
                   scams on their computers.

 2005-I-04         Union alleges                 2-14-05       Investigation Closed
                   unprofessional conduct by                    06-03-05
                   FLRA Regional
                   Attorney in case.

 2005-I-05         FLRA Regional Office          3-21-05       Investigation in
                   Employee threatened by                      process by FLRA IG
                   potential customer.




                                        11
Hotline Calls

During this reporting period, the FLRA Inspector General processed
seven
calls.

                       Federal Labor Relations Authority
                        Office of the Inspector General
                             FY 2005 Hotline Log

   Case No.               Subject               Date              Status
                                               Receive
                                                 d
 2005-H-01       Dept. of Veterans Affairs    10/04/04     Closed. Referred to
                 employee alleged                          Dept. of Veteran
                 improper handling of his                  Affairs Inspector
                 disability resulting in                   General.
                 administering leave                       10/04/0
                 without pay.

 2005-H-02       FLRA employee alleged        10/14/04     Closed. Referred to
                 complaints regarding the                  FLRA Administrative
                 FLRA’s travel services.                   Services Division
                                                           Travel Officer.
                                                           10/15/04
 2005-H-03       FLRA employee alleged        10/26/04     Closed
                 improper management                       11/01/04
                 access to former
                 employees internet and
                 email.

 2005-H-04       Former FAA traffic           10/29/04     Closed. Referred to
                 controller alleged                        Department of
                 improper treatment of                     Transportation
                 32 controllers.                           Inspector General.
                                                           11/01/04




                                         12
  Case No.             Subject               Date            Status
                                            Receive
                                              d
2005-H-05    Florida state employee        11/9/04    Closed. Referred to
             alleges improper                         Department of Labor
             management actions                       Inspector General.
             concerning employees.                    11/11/04

2005-H-06    Private sector employee       12/22/04   Closed. Referred to
             alleges private sector firm              the Department of
             denied his appropriate                   Labor Inspector
             tenure.                                  General.
                                                      12/26/04

2005-H-07    Non federal contractor        l/04/05    Closed. Referred to
             alleges improper work                    Department of Labor.
             compensation provided to                 1/4/05
             former employee.




                                    13
                    SPECIFIC REPORTING REQUIREMENTS OF
              THE INSPECTOR GENERAL ACT OF 1978, AS AMENDED

The following provides the report page references containing the Inspector
General responses, if any, to specific reporting requirements set forth in certain
sections of the Inspector General Act of 1978, as amended.

Section 4(a)(2)    Review of legislation and regulations.              None

Section 5(a)(1)    Significant problems, abuses, and deficiencies.     None

Section 5(a)(2)    Recommendations with respect to significant         Pg 20
                   problems, abuses, or deficiencies.

Section 5(a)(4)    Matters referred to prosecutorial authorities.              None

Section 5(a)(5)    Summary of instances where information              None
                   was refused.

Section 5(a)(6)    List of audit/internal review activity.             Pg 7

Section 5(a)(7)    Summary of significant reports.                     Pg 8

Section 5(a)(8)    Statistical table of reports with questioned costs. None

Section 5(a)(9)    Statistical table of reports with recommendations None
                   that funds be put to better use.

Section 5(a)(10)   Summary of previous reports without                 None
                   management decisions.

Section 5(a)(11)   Significant management decision revised during      None
                   this period.

Section 5(a)(12)   Significant management decision with which the      None
                   Inspector General disagrees.




                                          14
TABLE I: INSPECTOR GENERAL AUDIT REPORTS WITH
QUESTIONED COSTS


         INSPECTOR GENERAL              NUMBER
            REPORTS WITH                   OF          DOLLAR VALUE
          QUESTIONED COSTS              REPORTS
                                                  Questioned
                                                    Costs

 A.    For which no management               0        0
 decision has been made by the
 commencement of the reporting
 period.

 B.    Which were issued during the
 reporting period.                           0        0

 C.    For which a management
 decision was made during the                0        0
 reporting period.

      (I) dollar value of disallowed
 costs.                                      0        0

       (ii) dollar value of costs not
 disallowed.                                 0        0

 D.     For which no management
 decision has been made by the end           0        0
 of the reporting period.




                                        15
TABLE II: INSPECTOR GENERAL AUDIT REPORTS WITH
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

      INSPECTOR GENERAL REPORTS                 NUMBER
      WITH RECOMMENDATIONS THAT                   OF     DOLLAR VALUE
       FUNDS BE PUT TO BETTER USE              REPORTS

A.    For which no management decision           0            0
has been made by the commencement of
the reporting period.

B.    Which were issued during the
reporting period.                                 0           0

C.   For which a management decision
was made during the reporting period.             0           0

    (i) dollar value of recommendations
     that were agreed to by management.           0           0

   (ii) dollar value of recommendations
    that were not agreed to by                    0           0
management.

D.   For which no management decision
was made by the end of the reporting period.      0           0




                                      16
                        FLRA INSPECTOR GENERAL
                       Oversight Activities Summary
                      October 1, 2004 - March 31, 2005

Subject                                                        Status

Internal Review of FLRA’s Procurement of Court                Completed
Reporting Services

Internal Review of FLRA's Alternative Work Schedules          Completed

Audit of FLRA Financial Statements                            Completed

Evaluation of FLRA Compliance with FISMA Act             Completed

Assessment of FLRA's Management and Performance               Completed




                                       17
                             FLRA INSPECTOR GENERAL
                           CORRECTIVE ACTION SUMMARY
                           October 1, 2004 - March 31, 2005




New Corrective Actions                         20

Open Corrective Actions Carried Over           83

Total Actions Closed This Period                0

Total to be Carried Over                      126




                                         18
                                 CORRECTIVE ACTIONS

OVERSIGHT RECOMMENDATIONS FOR SIX MONTH PERIOD ENDING MARCH 31, 2005

2005 Financial Statement Audit              1. Executiv e management should start the
                                           agency tow ards FISMA compliance by
                                           prov iding support for correcting the out-of-
                                           compliance situation. This support should
                                           consist of not only memoranda, policy, and
                                           documented direction, but also of financial and
                                           budgetary resource allocation for the goods,
                                           serv ices, and personnel needs of the agency to
                                           correct the situation. This support, along w ith
                                           the undertaking of correctiv e actions by the
                                           Chief Information Officer and other FLRA staff,
                                           should be focused on implementing the
                                           recommendations prov ided to the FLRA from
                                           the fiscal year 2004 FISMA audit report.

                                           2. Executiv e management should establish
                                           w ho is to perform Chief Financial Officer duties
                                           and responsibilities for the agency. This
                                           indiv idual should hav e the appropriate
                                           know ledge and skills needed for fulfilling all the
                                           necessary duties and responsibilities.

                                           3. Executiv e management should ensure
                                           agency policies and procedures are kept
                                           current and in accordance w ith existing law s
                                           and regulations. This assurance w ould entail
                                           monitoring existing policies and procedures
                                           and identifying those that are in need of
                                           rev ision. For those policies and procedures
                                           submitted by agency Directors concerning any
                                           changes needed for adoption of the policy or
                                           procedure by the agency.
                                           4. FLRA should insure continuity of its
                                           operations through hav ing better support
                                           prov iders and their serv ices. This support
                                           could be prov ided in many different w ays,
                                           including: obtaining external system support
                                           prov iders and their serv ices. As an interim
                                           measure, other FLRA employees be giv en the
                                           appropriate training and guidance to establish
                                           adequate support for the continued operation of
                                           FLRA accounting functions. This w ould ensure
                                           that there is a sufficient "back up know ledge
                                           base" in other employees in the ev ent of a loss
                                           of a single critical employee.

                                           5. FLRA should determine the best system

                                          19
source for its ov erall accounting, budgetary,
and financial needs on a going-forw ard basis.
This may inv olv e determining other options
av ailable from the U.S. Department of the
Interior as w ell as alternativ e priv ate sector or
gov ernmental sources that can efficiently meet
FLRA's needs.
6. Detailed fixed asset records should be
maintained and reconciled to the general ledger
on a timely basis to ensure accurate accounting
for assets. These records should be timely and
appropriately updated each period for asset
additions and subtractions resulting from
acquisitions, trades, disposals, etc.

7. Management should address cash
disbursement procedures, accounts payable
procedures and internal controls in its
dev elopment of an improv ed system of fiscal
and accounting management. The process of
accounts payable should be a core function that
is contained w ithin the accounting system.

8. The Executiv e Director should examine the
procurement process betw een the Div isions of
Budget and Finance and Administrativ e
Serv ices and ensure the proper policies and
procedures are in place to prov ide that FLRA
obligations are recorded into the agency
accounting records in an accurate and timely
manner. In addition, the Executiv e Director
should ensure that the policies and procedures
include adequate internal control and
monitoring.

9. Information needed for each quarter close
should include all necessary updated
information for fair statement of the financial
position and results of operation.

10. The process of updating the liability of
accrued leav e should be conducted quarterly in
time for the fiscal quarter accounting close.
This updating should ensure fair statement of
the accrual by obtaining accurate and reliable
data needed to determine the accrual.

11. The process of updating the liabilities of
Accrued FECA and Future Workers
Compensation should be conducted quarterly in
time for the fiscal quarter accounting close.
This updating should ensure fair statement of

20
                                        the accrual by obtaining accurate and reliable
                                        data needed to determine the accrual.


                                        12. Formal collection procedures should be
                                        establish that include: The rev iew of accounts
                                        receiv able for old and slow -paying accounts;
                                        The formal periodic rev iew of the account
                                        receiv able aged trial balance; The
                                        implementation of procedures for contacting
                                        delinquent accounts for payment, such as
                                        sending letters; A quarterly assessment
                                        concerning the collectibility of the receiv ables;
                                        and The determination of the allow ance for
                                        doubtful accounts.

                                        13. The FLRA should ensure that the PAR is
                                        deliv ered by the regulatory required date.

                                        14. Lease agreements should be rev iew ed for
                                        existing occupied and used spaces and ensure
                                        each lease is accurate and complete. Any
                                        omissions should be addressed and follow ed
                                        up w ith appropriate w ritten requests to the
                                        lessor.

                                        15. In conj unction w ith the back-up of key
                                        accounting positions, procedures are
                                        established for a rev iew of manual adj usting
                                        j ournal entries prior to entering to the system.


                                        16. FLRA should address w hether alternativ e
                                        summary lev el information can be posted to the
                                        general edger for the payroll interface. With
                                        summary of information by department, the
                                        general ledger w ould be greatly improv ed as a
                                        monitoring and analysis tool for management.

Internal Rev iew   of Court Reporting   1. FLRA should improv e its contracting
                                        serv ices for both internal and external
                                        contracting and should inv olv e input from
                                        managers w ho w ill be affected by outsourced
                                        actions.

                                        2. FLRA should focus on proper contracting for
                                        court reporting serv ices in a timely manner w ith
                                        initial requirement input from FLRA sources
                                        normally requiring these serv ices.
Internal Rev iew of Alternativ e
Work Serv ices                          1. Time Keepers and Managers should rev iew
                                        biw eekly schedules statements of w ork and

                                        21
                           check sign in/out sheets of Gliding Flexible
                           employees.

                           2. FLRA Management should consider preparing
                           a standard biw eekly sign in/out sheet for all
                           FLRA employees to ensure proper preparation
                           of time statement sheets by all employees


Inv estigation 2004-I-02   1. FLRA management should focus on creating
                           and/or updating policy for their procurement
                           operations and prov iding this policy to
                           contracting employees so that the subj ect
                           employees are properly informed of changes
                           related to this policy. Contract file information
                           should be standardized and include all
                           submitted proposals w ith documented
                           ev aluations. Task orders w ritten by FLRA
                           managers should include ev aluation criteria by
                           w hich contractors w ill be ev aluated.

                           2. The FLRA Contracting Officer needs to
                           understand that, in spite of his authority and
                           independence to handle claims and make final
                           decisions, FLRA management should be
                           informed of contract related problems and
                           claims that hav e been filed against the Agency
                           prior to processing.

                           3. FLRA management should focus more on
                           human capital and customer oriented
                           relationships. Also, FLRA management should
                           be aw are of and support appropriate alternativ e
                           dispute resolutions for claims as they do for
                           unfair labor practice charge and arbitration
                           cases w hich prov ide greater satisfaction to the
                           filing party, prov iding innov ativ e methods of
                           resolv ing disputes and greater efficiency in
                           achiev ing settlements.

                           4. FLRA management should ensure that
                           senior appointed managers hav e know ledge
                           and/or are prov ided w ith necessary training in
                           the programs they are responsible for
                           managing.




                           22
                                   Definitions

Action

Completion by management of either all actions necessary to implement report
recommendations or a management decision that determines no action is
 necessary.

Funds Be Put To Better Use

The amount of savings estimated by the Inspector General that could be
obtained by implementing report recommendations relating to more
efficiency and effectiveness of programs and operations.

Management Decision

A final decision made by management in response to audit report
recommendations that may include actions concluded to be necessary or a
determination that no action is necessary.

Management Letter

This document brings to the attention of management any of a broad range of
issues and subjects which should be addressed by management, but do not
require formal audit or investigation. Management letters are generally
unplanned and are issued to report on situations found in conjunction with an
on-going or completed audit or investigation. These letters may also be used
to expand on previously issued audit report recommendations.

Questioned Costs

Expenditures questioned by the Inspector General are usually due to the
following:

Unsupported costs, which involve inadequate documentation;
Disallowed costs, which involve an alleged violation concurred with by
Managements Decision of a law, regulation, grant, contract, or another
agreement; or unnecessary costs which involve unnecessary or wasteful
spending.



                                        23
REPORT FRAUD, WASTE, ABUSE, AND MISMANAGEMENT

                       TO

 THE FEDERAL LABOR RELATIONS AUTHORITY

     OFFICE OF THE INSPECTOR GENERAL

                   HOTLINE

         1-800-331-3572 (24 hr. service)

                 202-218-7744

                   or write to

                     FLRA

          Office of Inspector General

               1400 K Street, NW

                   Suite 240

            Washington, D.C. 20424




                       24
